   October 15, 2003




Acquisition

Government Source Inspections
(D-2004-011)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DLA                   Defense Logistics Agency
DCMA                  Defense Contract Management Agency
FAR                   Federal Acquisition Regulations
          Office of the Inspector General of the Department of Defense
Report No. D-2004-011                                                     October 15, 2003
   (Project No. D2002CF-0169)

                         Government Source Inspections

                                 Executive Summary

Who Should Read This Report and Why? The DoD acquisition and contracting
community as well as members of quality assurance, technical, and engineering functions
who support DoD weapon systems should read this report. The report provides insight
into the expectations, appropriateness, and realities of Government source inspections.
Background. Federal regulations require that agencies provide quality assurance to
ensure that supplies and services meet contract requirements. Inspection of supplies or
services before transfer or acceptance is a key facet of the DoD quality assurance
program. Inspection generally occurs at either the point where goods are made or
assembled (source inspection) or at the DoD activity receiving the finished product
(destination inspection). Federal regulations do not define a source inspection nor do
they designate a primer for the steps involved during a source inspection. Instead,
engineers, contractors, contracting officers, or quality assurance specialists determine the
location and extent of a source inspection.

The Defense Contract Management Agency (DCMA) conducts source inspections.
Quality assurance specialists work at either a contractor plant or a DCMA office (in
which case, each specialist is responsible for overseeing the work of several contractors).
In 9 of the 10 DCMA offices we visited, more than 40 percent of the specialists were
located in contractor plants. In FY 2002, DCMA employed 2,846 quality assurance
specialists, down from the 3,797 quality assurance specialists employed in FY 1998. In
the last 5 years, the DCMA workforce decreased about 25 percent.

On May 29, 1997, the Under Secretary of Defense (Comptroller) issued DoD
Management Reform Memorandum Number 10, “Redesigning Department of Defense
Source Acceptance Policies and Procedures.” The memorandum directed that the
Military Departments and DoD agencies review existing stock items designated for a
Government source inspection. After that review, a process action team recommended
that the Military Departments and DoD Agencies eliminate source inspection
requirements for about 158,000 of the 442,000 procurements. Regulatory guidance was
subsequently changed requiring contracting activities to consider factors such as a
contractor’s production and quality history in conducting an inspection at source rather
than at destination.

Results. Steps the Under Secretary of Defense (Comptroller) took to reduce source
inspection had merit; however, reform has not occurred and DoD needs to relook at its
overall quality assurance program. Recent changes in the DoD Acquisition
strategy−from acquiring goods and services based upon rigid specifications to a more
commercial approach−has changed the quality assurance environment. In addition,
communication breakdowns among DoD program offices, procurement activities, and
quality assurance personnel resulted in either unnecessary Government source
inspections or inspections of questionable value. Our review of 518 contracts for FY
2001 requiring source inspections showed that as many as 172 inspections provided
either nominal or no value to the DoD quality assurance process. Further, an additional
254 inspections provided questionable value because the contracts did not have a quality
assurance letter of instruction or a quality deficiency report. The results of most in-plant
inspections showed few deficiencies. As a result, the Government was using resources to
perform inspections that resulted in very little value added.

To provide a more meaningful quality assurance program, the Under Secretary of
Defense for Acquisition, Technology, and Logistics should define what is involved in
conducting a source inspection versus a destination inspection. The Under Secretary
should also define item criticality for non-aviation critical items, address source
inspection requirements for commercially procured items and procurements from
distributors, and prohibit source inspections for commercial-off-the-shelf items. In
addition, the Under Secretary should require that DoD procurement activities respond to
DCMA requests for changes in source inspection requirements as well as determine the
need for the use of both the Certificate of Conformance and Alternate Release Procedure
methods. To maximize the effective use of DCMA resources, the Director, DCMA
should, on a
risk-based approach, focus its inspections on new contractors, small contractors, and
contractors with known quality problems. The Director should also require that DCMA
personnel request procurement activities to change source inspection requirements when
appropriate and establish metrics that identify those activities that do not respond to the
requests. Finally, the Director, DCMA should instruct its quality assurance specialists on
how and when to implement the Certificate of Conformance and Alternate Release
Procedures (See the Finding section of the report for detailed recommendations).

We reviewed the management control program as it related to Government source
inspections. Management controls did not ensure that formal notifications of changes in
source inspection requirements were properly submitted or promptly acted upon.

Management Comments and Audit Response. We provided a draft of this report on
June 30, 2003. The Under Secretary of Defense for Acquisition, Technology, and
Logistics did not respond to the draft report. Therefore, we request that the Under
Secretary of Defense for Acquisition, Technology, and Logistics provide comments to
the recommendations in this report by December 1, 2003.
The Executive Director, Contract Management Operations, DCMA either concurred or
partially concurred with the recommendations. For the partially concurred
recommendations, the Executive Director proposed alternative actions. We agree with
the proposed alternative actions in monitoring the effective use of DCMA quality
assurance specialists and in the reporting of contract deficiencies involving a requested
change from source to destination inspection. See the Finding section of the report for a
discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                             ii
Table of Contents

Executive Summary                                       i

Background                                             1

Objectives                                             3

Finding
     DoD Management of Government Source Inspections   4

Appendixes
     A. Scope and Methodology                          24
         Management Control Program Review             25
          Prior Coverage                               27
     B. Report Distribution                            28


Management Comments
     Defense Contract Management Agency Comments       31
Background
    Federal Acquisition Regulation (FAR) Section 46.102, “Policy,” requires that
    agencies include in contracts inspections and other quality requirements that will
    protect the interest of the Government. FAR Section 46.104, “Contract
    Administration Officer Responsibilities,” makes the contract administration office
    responsible for performing any action necessary to verify whether the supplies or
    services conform to contract quality requirements. FAR Section 46.402,
    “Government Contract Quality Assurance at Source,” and FAR Section 46.403,
    “Government Contract Quality Assurance at Destination,” both describe
    circumstances for conducting an inspection at either a source or a destination.
    After completing an inspection, the Government agent signs a DD Form 250,
    “Material Inspection and Receiving Report,” which authorizes acceptance and
    shipment of the item. However, the FAR does not define source inspection or
    designate a primer of what should be done during an inspection.

    In-house engineering or weapon system program personnel advised the
    contracting officer of the type of inspection required. The contracting officer then
    incorporated any specific requirement in the contract. We could not find,
    however, criteria requiring that the contracting officer document why a contract
    required a source inspection. Contractors also had input on the type of inspection,
    and often preferred source inspections because the contractors were paid faster for
    the items purchased.

    After a contract is awarded, the contract is either sent to the Defense Contract
    Management Agency (DCMA) for administration (including quality assurance) or
    is managed by the Military Service purchasing the items. When specific
    instructions (quality assurance letters of instruction) are not provided and the
    contract requires a source inspection, the specialist determines the type and depth
    of the inspection. The DCMA One Book, September 1999, provides policy to
    DCMA for the performance of contract management functions, including quality
    assurance. The DCMA assigns the contract to a quality assurance specialist who
    has the appropriate technical certification for conducting the required inspection.
    The specialist reviews the contract to determine the specific inspection
    requirements. The specialist also reviews the contractor’s manufacturing and
    quality history about the item. The specialist may also inspect any special
    packaging requirements for the item. The inspections that the quality assurance
    specialist conducts vary depending on the company’s history, inspection
    requirements, and the type of and criticality of the item purchased.

    Types of Source Inspections. Three types of source inspections−physical
    inspection of finished items, inspection of the processes within the facilities, and a
    simple observation of kind, count, and condition−were conducted.

            Physical Inspections. Physical inspections require that quality assurance
    specialists select a manufactured item or a sample of manufactured items and
    inspect that item to a specification, drawing, or other instruction. If inspection
    instructions are not available, a specialist can inspect the item or items at their


                                          1
discretion. A specialist generally tries to determine the most critical characteristic
or function for a particular item and performs a variety of measurements.

More detailed inspection instructions are provided through a quality assurance
letter of instruction. The letter is prepared by a purchasing office or a technical
activity regarding a specific product or process specifying the type and extent of
inspection to be performed on a specific contract for specific supplies or services.
The quality assurance letters of instruction we reviewed were instructions for a
physical inspection of items.

        Contractor Processes. DCMA uses process-proofing inspections and
product audits as a part of its source inspection process. Process-proofing
inspections consist of assessing contractor processes and production line
procedures to establish confidence that procured items produce the desired
outcome, and that process-proofing identifies areas of high risk and helps reduce
reliance on a final inspection. To accomplish process-proofing inspections, the
quality assurance specialist must assess:

       •   the contractor’s workforce skill levels,

       •   the adequacy of the contractor’s machinery and materials, and

       •   contractual requirements to be met.

        The DCMA One Book requires that product audits be conducted on
moderate and high-risk processes. DCMA Pratt-Whitney, Hartford, Connecticut,
identified a product audit as, “examinations or test of processes which can be
product hardware or associated control system documents.” Other DCMA
specialists defined product audits as inspecting an item for compliance with
drawings or specifications and inspecting for dimensional and workmanship
compliance.

       Kind, Count, and Condition. Quality assurance personnel also perform
an inspection called kind, count, and condition. That method only superficially
evaluates the quality of an item and consists of:

       •   visual identification of at least one item per item description,
           verification of part number, contract number, and National Stock
           Number (kind);

       •   visual confirmation of contents of one package per line item and
           number of packages received (count); and

       •   visual verification of physical appearance (condition).

Management Reform Memorandum No. 10. On May 29, 1997, the Under
Secretary of Defense (Comptroller) issued DoD Management Reform
Memorandum No. 10, “Redesigning Department of Defense Source Acceptance
Policies and Procedures,” which directed a reassessment of the DoD source
acceptance policies and procedures. The memorandum directed that the Under
Secretary of Defense for Acquisition and Technology, the Military Departments,

                                      2
    DCMA, and the Inspector General of the Department of Defense account for
    Government steps and costs in the source acceptance process, and then compare
    those steps and costs to alternative methods. The memorandum further directed
    that a task force undertake a review to ascertain if they should retain the source
    designation of the existing stock items.

    On September 24, 1997, the Under Secretary of Defense for Acquisition and
    Technology issued the source inspection review plan the process action team task
    force recommended. The plan states that although source inspections are an
    important safeguard for ensuring the quality of DoD material, the inspections
    represent a significant cost for the acquisition system and must be incurred only
    when appropriate. Source inspections should be the exception rather than the
    rule, especially when the contractor has good quality history. The review plan
    required revalidation of source inspected items, and the Military Departments,
    Defense agencies, and DoD field activities were tasked to review supply items
    bought in FY 1998 and FY 1999. The plan required that engineering support
    activities respond to requests for reevaluating critical item determinations. The
    Military Departments and the Defense Logistics Agency (DLA) reviewed more
    than 442,000 items between January 1998 and March 1999. The review
    identified more than 158,000 items changing the inspection location from source
    to destination. DLA revised its existing regulations that were designed to
    streamline the source inspection process.

    Source Inspection Decision Guide. To ensure successful implementation of
    Management Reform Memorandum No.10, the process action team task force
    developed the “Government Source Inspection Decision Guide.” The decision
    guide factors in the quality history of a company when recommending whether to
    conduct a source inspection. Based on the type of quality history of the
    contractor plus characteristics listed under each category, one could determine the
    recommended type of inspection. Only two buying commands implemented a
    version of the Government Source Inspection Decision Guide into its source
    inspection criteria.


Objectives
    Our objective was to determine whether source inspections were performed on
    purchases that did not require them. Specifically, the audit identified Military
    Department and DLA procurements in which the need for source inspection was
    determined as unnecessary or questionable. We also reviewed the management
    control program as it related to the overall objective. See Appendix A for a
    discussion of the scope and methodology, our review of the management control
    program, and prior audit coverage related to the objectives.




                                         3
            DoD Management of Government Source
            Inspections
            DoD could have made better use of quality assurance resources by
            assessing its use of quality assurance specialists and better defining its
            policies and procedures relating to source inspections. Communication
            breakdowns among program offices, procurement activities, and quality
            assurance activities led to:

                    •   ambiguity in the level and extent of requested source
                        inspections;
                    •   inconsistent and unclear application of items defined as critical
                        or having a critical application;

                    •   inconsistent implementation of inspection procedures for
                        commercial items; and

                    •   arbitrary and inconsistent inspection procedures for items
                        purchased from distributors.

            As a result, DCMA resources were not used wisely and confusion existed
            for the user regarding assurances. In addition, as many as 426 of
            518 contracts for FY 2001 that we reviewed received either nominal
            inspection, no inspection, or inspection where the value added to the
            procurement process was questionable.


Criteria
     Government Inspection Responsibilities. FAR Part 46, “Quality Assurance,”
     prescribes the general policies and procedures for Government source inspections.
     FAR Section 46.103, “Contracting Officer Responsibilities,” states that
     contracting offices must establish technical specifications for inspections, testing,
     and other contract quality requirements. The specifications include issuance of
     instructions to the contract administration office that will ensure integrity of the
     supplies procured. FAR Subpart 46.2, “Contract Quality Requirements,”
     mandates that contracting officers establish the “appropriate quality
     requirements.” The contracting officer can establish a range of quality control
     procedures−from inspection at the time of acceptance to a requirement for the
     contractor to implement a program for quality assurance. FAR Section 46.402
     states when a source inspection must be performed. An inspection is conducted at
     the source location if:

            •   performance at any other place would require uneconomical
                disassembly or destructive testing;


                                           4
       •   considerable loss would result from the manufacture and shipment of
           unacceptable supplies or from the delay in making necessary
           corrections;

       •   special required instruments, gauges, or facilities are available only at
           source;

       •   performance at any other place would destroy or require replacement
           of costly special packing and packaging;

       •   Government inspection during contract performance is essential; or

       •   it is determined for other reasons to be within the best interest of the
           Government.

However, the FAR does not clearly define exactly what a source inspection
entails. The contracting officer does not operate in a vacuum. Instead, the
contracting officer receives assistance from system engineers, contractors, and
users about the degree of quality inspection needed.

Government inspections at a destination location are outlined in FAR
Section 46.403. Specific factors that warrant inspection at destination include
commercial-off-the-shelf items requiring no technical inspection, whether the
item is perishable or controlled by other Federal regulatory agencies and the
availability of test equipment is located at destination. The FAR section does not
further define a general factor addressing whether inspection at destination is in
the Government’s best interest.

Defense FAR Supplement Paragraph 246.103(2)(c) states that the activity
responsible for technical requirements may prepare instructions on the type and
extent of Government inspections for acquisitions that are complex, have critical
applications, or have unusual requirements. The regulation is unclear about
whether the instruction applies to a general inspection, a quality assurance letter
of instruction, or a Government source inspection. The regulation requires that
when preparing instructions for technical requirements the technical activity must
consider the criticality of material procured in relation to intended use. In
addition, consideration must be given to the quality history of the contractor,
problems encountered in development of the material, problems encountered in
other procurements of the same or similar material, feedback data, and experience
of other contractors in overcoming manufacturing problems. The instructions
must be prepared on a contract-by-contract basis and not serve as a substitute for
incomplete contract quality requirements. After issuing the instructions, the
technical activity must provide the contract administration office available
information regarding those factors that resulted in the requirement of
Government inspection and must periodically analyze the need to continue,
change, or discontinue the instructions.

DCMA Guidance. The DCMA One Book provides quality assurance guidance
for DCMA specialists. It states that if a contract is awarded as a commercial
contract and the quality assurance requirement clause of FAR Clause 52.212-4,

                                     5
“Contract Terms and Conditions−Commercial Items,” is listed in the contract and
addenda are included, then the surveillance by DCMA is limited to the addenda.
If addenda are not included, surveillance by DCMA is limited to inspection and
test after offered for acceptance. Furthermore, if surveillance is limited to kind,
count, and condition, the quality assurance specialist should issue a DD
Form 1716, “Contract Data Action Recommendation/Deficiency Report,” to
change the point of inspection to destination. The DCMA One Book also
describes policy regarding quality assurance of distributors.

A distributor is defined as a supplier whose primary business is to purchase,
stock, sell, or distribute items manufactured by others, including original
equipment manufacturers. The DCMA One Book, Chapter 4, “Quality Assurance
and Product Acceptance Services,” addresses quality assurance for distributors
and provides guidance for determining whether source inspection procedures can
be implemented on items procured from distributors. The guidance for source
inspections is based on identifying the business as a distributor, the availability of
technical data packages, drawings, specified Government or contractor test and
acceptance procedures, and the practicability of conducting a source inspection at
the distributor’s location. The practicality of conducting source inspections with
a distributor is based on whether the key characteristics of the procured item can
be assessed at the distributor’s location.

Item Criticality. The extent of Government source inspections is usually based
on the classification of the contract item or service as determined by its technical
description, complexity, and criticality of application. FAR Section 46.203,
“Criteria for Use of Contract Quality Requirements,” classifies item technical
descriptions as either commercial or Military-Federal unique, depending on
whether the item is described in a commercial catalog or drawing, or a
Government drawing or specification. Complex items are defined as having
quality characteristics, not wholly visible in the end item, for which contractual
conformance must be established progressively through precise measurements,
tests, and controls applied during the manufacturing and in the functional
operation. Item criticality requires the most in-depth analysis and decision. The
most common definition of a critical application item is an item in which failure
could injure personnel or jeopardize a vital mission of an agency. A noncritical
application item is any other application.

DLA Directive 3200.1, “Engineering Support for Items Supplied by DLA and
General Services Administration,” dated October 28, 1994, provides a definition
of a critical application item. The directive stipulates that a critical application
item is essential to weapon system performance, operation, or the preservation of
life and safety of operating personnel. The directive applies to all DoD
procurements and further states that the Military Departments are responsible for
identifying critical application and weapon system items.

Regulatory Criteria for Commercial Items. The FAR defines a commercial
item as any item that is of a type the general public customarily uses. The item
may be modified from a type customarily available in the commercial
marketplace to meet Federal Government requirements. FAR Section 12.208,
“Contract Quality Assurance,” states that contracts must rely on the contractor’s


                                      6
    existing quality assurance systems in lieu of a Government [source] inspection
    unless the commercial practices include in-process inspections. The reliance on
    the contractor’s existing quality assurance system is considered the accepted
    commercial practice for procurement of commercial items. However, FAR
    Clause 52.212-4 defines the commercial item procurement process and stipulates
    that the Government reserves the right to inspect or test any supply offered for
    acceptance. The DCMA One Book addresses the practicality of the role of the
    quality assurance specialist as well as commercial items and states that the
    “Government will not perform surveillance prior to the time the contractor
    tenders commercial items for Government acceptance.”


Quality Assurance Workforce
    The DCMA quality assurance workforce was reduced from 3,797 in FY 1998 to
    2,846 in FY 2002, a reduction of about 25 percent, while contract administrative
    workload increased from approximately 170,000 contracts to nearly
    200,000 contracts during the same period. Figure 1 depicts the DCMA Quality
    Assurance workforce and corresponding workload during FY 1998 through
    FY 2002.



        200,000
        190,000
        180,000
        170,000
        160,000



         4,000
         3,600
         3,200
         2,800


                  1998        1999   2000        2001      2002

                         Contracts              Quality Assurance Workforce



    Figure 1. DCMA Workload and Quality Assurance Workforce

    DCMA Workload and Workforce Trends. The Individual Contracting Action
    Data Base reported that in FY 1998 DoD awarded approximately
    260,000 contracts to about 31,000 contractors, and in FY 2002 awarded
    approximately 473,000 contracts to about 47,000 contractors. In 5 years, the

                                            7
number of contractors increased overall by 50 percent while quality assurance
specialists decreased by 25 percent. A closer look at this trend shows that small
business procurements (procurements valued at less than $5 million) have
increased at a greater rate (67 percent).

Another factor affecting the future effectiveness of the DCMA quality assurance
program is the average age of the DCMA workforce. The average age of DCMA
quality assurance specialists is 52.6 years, as extracted from the DCMA Cognos
Powerplay Web explorer by headquarters, DCMA personnel. Although the
specialists are not required to retire at age 55, many of the specialists will be
eligible to retire. Therefore, the potential loss of expertise by the current
specialists is a realistic possibility. For example, in FY 2002 DCMA
Indianapolis, Indiana, lost through retirement 17 quality assurance specialists.
The office did not replace the retired specialists.

We asked several of the DCMA offices visited for workload statistics. Of those
offices, two reported that the ratio of contracts to quality assurance specialists
increased between FY 1997 and FY 2002. DCMA Santa Ana, California,
reported that the ratio increased from 117 to 1 in FY 1997 to 165 to 1 in FY 2002,
and DCMA Twin Cities, Minnesota, reported the ratio increased from 37 to 1 in
FY 1997 to 64 to 1 in FY 2002. The increase in the number of contractors doing
business with DoD shows the success of DoD shift in acquisition strategy from a
military specification environment to using commercial practices. As a result of
that trend, the Director, DCMA should reconsider how best to use its quality
assurance personnel. Items that need addressing are: (1) the types and quality of
inspections needing to be performed in light of most items being deemed as
commercial, and (2) the location where the resources should be focused (in
contractor plants or smaller companies).

DCMA Workforce Dispersion. For 9 of the 10 DCMA sites we visited, 313 of
the 760 quality assurance specialists assigned to those offices were assigned to a
contractor plant. That amount represents a significant percentage of the
workforce tied to a particular location. If the company is producing good
products and especially if the company is producing mostly commercial items,
DCMA should use a more risk-based approach and consider shifting resources
from in-plant sites to poor performers, new contractors, and small contractors
providing truly critical items. For example, two quality assurance specialists
were assigned to a large contractor’s distribution plant for commercial parts. The
specialists could only verify that the company was inspecting manufactured items
entering the receiving department and that the items were packaged and addressed
properly. We believe that the resources could be better used.

Generally, the quality assurance responsibilities of the in-plant specialist remain
unchanged even if the number of contracts awarded to the contractor increase.
The workload would not increase because the specialist is responsible for
overseeing the contractor’s manufacturing processes versus inspecting each
manufactured item. Conversely, the nonresident specialists must be familiar with
the quality assurance processes and contract histories of multiple contractors. As
the number of companies contracting with DoD increases, the responsibilities of
the nonresident specialist will also increase. For example, one nonresident


                                     8
    specialist we interviewed provided oversight on 20 different contractors involving
    167 contracts. DCMA should consider reallocating specialists to assist
    nonresident specialists in meeting increasing inspection requirements. DCMA
    quality assurance resources should be reallocated based on the ongoing DoD
    effort to buy commercial items and use performance-based contracting. Neither
    of those buying philosophies requires that military specifications be
    used to manufacture items.

    DoD is not the only organization that provides quality assurance oversight to
    large contractors. The International Organization of Standardization, the Federal
    Aviation Administration, and the contractor’s in-house quality assurance
    department also provide oversight. The International Organization of
    Standardization is a worldwide quality management system that is implemented
    by individual contractors. Once a contractor is registered with the International
    Organization of Standards, the contractor must be periodically re-certified. The
    Federal Aviation Administration inspects aircraft part manufacturers. Large
    contractors also implement in-house quality assurance procedures, including
    process-proofing reviews of manufacturing processes and product audits. DCMA
    in-plant quality assurance specialists generally conduct process-proofing reviews
    and product audits at the same time as the contractor quality assurance
    representatives conduct their reviews. In effect, the DCMA specialists are
    evaluating the contractor quality representatives, not the quality systems of the
    contractors.

    A recent initiative between Raytheon and the Government resulted in elimination
    of source inspections at the Raytheon Tucson, Arizona, plant. The Government
    decided to eliminate any surveillance of the low-risk processes from purchase
    orders and estimated that it reduced workload by 5,000 work hours. The
    elimination of inspections was accomplished in two segments. The first segment
    actually eliminated source inspection at Raytheon, concentrating surveillance
    efforts in evaluating Raytheon’s suppliers. The inspection elimination plan
    focused on using Raytheon source inspectors to monitor supplier processes during
    the build-up of a product, instead of inspecting the end item. The second segment
    eliminated source surveillance of the suppliers where possible because the process
    was redundant to the Raytheon verification process.


Universe of Contracts Reviewed
    Our review included 518 FY 2001 contracts that contained requirements for
    source inspections. The 518 contracts included 139 Army contracts, 102 Navy
    contracts, 136 Air Force contracts, and 141 DLA contracts. We reviewed the
    contracts and interviewed engineering and contracting personnel at
    12 procurement locations. We also visited 10 DCMA locations that provided
    contract administration for 255 of the contracts we reviewed. At the 10 DCMA
    locations, we interviewed 156 quality assurance specialists to determine the type
    and extent of the source inspection conducted. We also e-mailed an additional
    37 DCMA locations to obtain source inspection information for 263 contracts.
    We segregated the 518 contracts for FY 2001 by those contracts that contained a

                                        9
     criticality designation for the procured items. We identified 253 of the
     518 contracts for which criticality was not designated in the contract documents
     or by the contracting officer. Of the 518 contracts, 21 contracts identified nuclear
     or submarine characteristics and received the required level of inspection. The
     21 nuclear and submarine contracts were justified source inspections. The
     remaining 244 contracts cited item criticality.

     A history of the contractor’s quality is another major part of determining whether
     a source inspection should be required, and if required, the depth of the
     inspection. One of the 12 procurement sites stated that a source inspection was
     conducted because of the past quality deficiency reports for 10 of the contracts
     located at the site. Only 4 of the 10 contracts received a higher-level source
     inspection.

     For 58 of the 518 contracts, the DCMA quality assurance specialist identified a
     nonconforming item during the source inspection. When found, the contractor
     fixed the nonconformance before the Government accepted the items. A physical
     nonconforming feature existed in at least 27 of the 58 contracts. The physical
     nonconformances included paint problems, clothing irregularities, incorrect
     calibration, and improper materials employed. The 58 contracts included
     39 separate contractors, of which at least 13 contractors had DCMA quality
     assurance specialists assigned at the plant.

     For 125 of the 518 contracts, problems had been identified during previous source
     inspections. The 125 contracts included 80 separate contractors where at least
     25 contractors had a quality assurance specialist on-site.

     Only 50 of the 518 contracts identified quality deficiency reports issued by users.
     The 50 contracts that received quality deficiency reports were comprised of
     43 different contractors. Of the 43 contractors, at least 12 had a DCMA quality
     assurance specialist on site at their location performing the source inspections.


Contracts Not Designating Criticality
     For the 253 contracts that did not designate item criticality, we found the
     following:

            •   43 contracts were source inspected that had specific inspection
                procedures (quality assurance letters of instruction) or contractors
                were cited with quality deficiency reports.

            •   90 contracts were either nominally inspected (for example, kind,
                count, and condition type inspections or lower-level inspections) or no
                source inspection was performed. Items included air assembly
                compressors, circuit card assemblies, and maintenance kits.




                                          10
       •   120 contracts received a source inspection that added questionable
           value. No evidence was presented that the contractors had prior
           quality deficiency reports, and the contracts provided no guidance to
           DCMA as to what needed inspected. Items included serge cloths, seat
           cushions, and a detector assembly tube.

Nominal or No-source Inspection. For 90 contracts, little or no value was added
to the quality assurance process for a nominal inspection that included a kind,
count, and condition inspection, or when no inspection was conducted. We
believe that a nominal type of inspection provided no additional value and could
be performed at destination. Furthermore, source inspections performed on
commercial items depletes part of the savings realized by purchasing commercial
items. As a result, we believe that the inspections should be conducted at
destination.

        Commercial Items Considered “Off-the-Shelf.” Procurement activities
requested source inspections for 5 of the 90 contracts receiving a nominal
inspection that were considered to be commercial-off-the-shelf items. However,
FAR Section 46.403 stipulates that inspections shall be performed at destination
for supplies purchased off the shelf that require no technical inspection. For
example, we reviewed a contract at DCMA Santa Ana for a commercial-off-the-
shelf cover assembly sensor. The contract originally required inspection at
destination. To expedite payment processing, the contractor requested the
inspection at source. The contract was modified to include the source inspection
requirement. However, the quality assurance specialist performed only a kind,
count, and condition type inspection that provided minimal value added to the
quality assurance process and should have been performed at destination.

Questionable Source Inspections. Of the 253 noncritical contracts reviewed,
120 had a questionable source inspection requirement because DCMA noted that
the contractors did not have prior quality deficiency reports, which would indicate
a good quality history. Questionable source inspections were conducted on items
such as a serge cloth, a firefighting rescue truck, a brake valve, a truck-mounted
crane, pneumatic tire wheels, and seat cushions. In addition, the contracts did not
have quality assurance letters of instruction providing mandated guidance to
DCMA. As a result, the quality assurance specialist performed a level of
inspection that they felt adequate. We do not know whether the inspection the
quality assurance specialist completed was the inspection intended by the
procurement activity or by system engineers. A more in-depth look at the
120 contracts showed that 61 of the contracts were for commercial items or for
items purchased from distributors. We question if there was any value added to
the process by the inspections. The Defense FAR Supplement 246.103(2)(c)
states that the technical office should consider past quality history and criticality
of an item before preparing inspection instructions. The 120 contracts did not
identify the item as critical, and, furthermore, DCMA had no record of quality
deficiency reports on these items.

        Procured Commercially. Procurement activities requested source
inspection for 59 commercial contracts without a criticality designation, and
DCMA documented that the contractors had a good quality history. For example,

                                     11
     questionable source inspections were conducted on items such as a relay valve,
     propeller shaft, a disc brake rotor, and a direct access storage device.
     Furthermore, our review of the inspections showed no deficiencies disclosed. We
     believe that if items were deemed commercial and sold in the commercial market
     place, inspection requirements could generally be reduced. That concept is one of
     the major advantages to purchasing items from commercial sources.


Contracts Designating Criticality
     We reviewed 244 contracts that designated item criticality and determined that:

            •   28 contracts were source inspected that had a quality assurance letter
                of instruction or had quality deficiency reports issued on prior
                purchases.

            •   82 contracts were either nominally inspected or no source inspections
                were performed (for example, kind, count and condition type
                inspections, lower-level inspections and no inspections conducted).

            •   134 contracts received a source inspection that added questionable
                value. The contractors did not have prior quality deficiency reports
                and these contracts did not have mandated inspection guidance to
                DCMA.

     Commercial Items. Of the 82 contracts that were nominally inspected or where
     no inspection was performed, 43 were for commercial items. We reviewed 3 of
     the 43 commercial item contracts at DCMA – Hamilton Sundstrand, Windsor
     Locks, Connecticut, for the procurement of a retainer connecting rod, alternating
     current oil-cooled generator, and motor parts. The contracts did not include
     source inspection instructions or requirements; however, the procurement
     activities at Tinker Air Force Base, Oklahoma, and Hill Air Force Base, Utah,
     deemed the items critical.
     The quality assurance specialists at the plant assessed only the contractor’s past
     performance and determined that the items would be accepted based on the
     contractor’s self-certification. Accordingly, personnel in the program office and
     procurement activities may have a false sense of security in what the source
     inspection is accomplishing. In addition, we visited seven plants, and only two
     plants reported quality deficiency reports for the items selected for review.
     Again, if a contractor shows a history of producing good quality parts, DCMA
     could consider reducing or eliminating its quality resources at such locations and
     concentrating in other problem areas.

     Questionable Source Inspections. For the 134 contracts receiving a source
     inspection that added questionable value, DCMA noted that the contractors did
     not have prior quality deficiency reports, which is an indication of good quality
     history. The Defense FAR Supplement states that the technical office should
     consider quality history and the criticality of the item related to its intended use in


                                           12
    preparing instructions. In addition, the contracts did not have quality assurance
    letters of instruction providing mandated guidance to DCMA. As a result, the
    quality assurance specialist performed a level of inspection that they felt
    adequate. We do not know whether the inspection the quality assurance specialist
    completed was the inspection intended by the procurement activity or by system
    engineers. Furthermore, 65 of the contracts were for commercial items and 6
    were for commercial items obtained from distributors. For example, procurement
    activities
    required that DCMA perform source inspections on socket head screw caps,
    access covers, machine screws, rollers, filler opening caps, pneumatic tires, and
    nonmetallic hose assemblies.

            Procured from Distributors. For the items obtained from the
    distributors, the quality assurance specialists did not have the technical
    information available to help identify which key characteristics constituted the
    item’s criticality. Even if technical information were available, measuring
    devices, such as gauges or other devices, may not be available at the distributor’s
    location. For example, a DLA contract indicated that a check valve was a critical
    application item. The distributor’s role in this procurement action was to obtain
    the item from the supplier, package the item, and ship it to the DoD customer.
    The quality assurance specialist stated that a source inspection for the check valve
    was meaningless because technical data packages or specified test procedures
    were not available at the distributor’s location. In addition, if the data packages
    and test procedures had been available, the specialist would have had to open
    packages that were packed by the original equipment manufacturer.


Communication Issues
    During our visits to contracting activities and DCMA offices, a disconnect was
    evident between what was expected for a source inspection, including use of
    alternate release procedures and certificates of conformance and their meanings,
    the information needed to conduct a good inspection, the requirements for
    identifying item criticality, and a lack of feedback regarding requests that could
    reduce inspection requirements.

    Inspection Expectations. Engineering and procurement activities may not be
    obtaining the depth and quality of inspections anticipated because of incomplete
    instructions for DCMA. Engineering personnel may not be getting the inspection
    they expected. For example, Navy engineers expect that DCMA quality
    assurance specialists closely scrutinize aircraft components requiring a source
    inspection. In accepting items from five contracts, DCMA did not inspect the
    items from those particular contracts. Instead, DCMA relied on surveillance of
    the contractor’s manufacturing processes. Using that method of quality
    assurance, rather than inspecting manufactured items that are ready for shipment,
    DCMA provided surveillance of the manufacturing process and conducted
    periodic product audits of some items at critical stages during manufacture. No
    indication existed that items from the five contracts were selected for a product
    audit. The items were manufactured and shipped without a detailed inspection.

                                         13
If the procurement activities or the engineers intend the source inspection to
closely scrutinize the manufactured item, procurement personnel or engineering
personnel must send a quality assurance letter of instruction to DCMA. Without
specific instructions, DCMA quality assurance specialists perform the inspection
based on their experience with the item as well as with the company. Another
area for which inspection expectations may not be what the procurement activities
or technical activities expected is the DCMA use of alternate release procedures.

        Alternate Release Procedure. The Defense FAR Supplement
Section 246.471(b), “Alternative Procedures-Contract Release for Shipment,”
states that the contract administration office may authorize, in writing, the
contractor to release supplies for shipment when:

       •   the stamping or signing of the shipping papers by a representative of
           the contract administration office interferes with the operation of the
           Government contract quality assurance program or takes too much of
           the Government representative’s time;

       •   sufficient continuity of production exists that permits the Government
           to establish a systematic and continuing evaluation of the contractor’s
           control of quality; and

       •   the contractor has a record of satisfactory quality, including that
           pertaining to preparation for shipment.

Alternate release procedures require that the contractor certify that the item or
items were subjected to, and passed all examinations and tests required by the
contract, conform to the quality and condition identified in the contract, and were
shipped in accordance with the shipping instructions. Although the procedure
may require DCMA quality surveillance during the manufacturing process,
DCMA may not have been present when the items were completed and finished.
While such a practice may be acceptable for commercial or noncritical items, the
practice may not be practicable for critical items for which the procurement or
engineering activities required inspection be conducted before shipment.

The Defense FAR Supplement does not state that the contract administration
office is required to notify the procurement or engineering activity when placing a
contractor on the alternate release program. If an item is critical, DCMA should
notify the procurement activity and the engineering activity of its intention to
place the contractor on the alternate release program. Of the 244 critical contracts
reviewed, 32 used alternate release procedures. Furthermore, 20 of the items
using alternate release procedures were for contractors in which DCMA conducts
process proofing mentioned above. As a result, the possibility exists that the
DCMA quality assurance specialist never touched or inspected the items. A
second method of release without inspection was a certificate of conformance.

       Certificate of Conformance. FAR Section 46.504, “Certificate of
Conformance,” states that contracting officers may insert a certificate of
conformance clause in the contract under certain instances instead of source



                                     14
inspection (whether the contract calls for acceptance at source or destination). A
certificate of conformance can be used when:

       •   acceptance on the basis of a contractor certificate of conformance is in
           the best interest of the Government;

       •   small losses would be incurred in the event of a defect; or

       •   based on the reputation of the contractor or past performance, it is
           likely that the supplies or services furnished will likely be acceptable
           and any defective work would be replaced, corrected, or repaired
           without contest.

In no case shall the rights of the Government to inspect supplies under the
inspection provisions of the contract be prejudiced.

FAR Section 46.504 is similar to alternate release procedures, with the exception
that the contracting officer must place the FAR clause for certificate of
conformance in the contract, whereas DCMA can place a contractor on alternate
release procedures without the knowledge of the procurement contracting office.
The similarity of the two methods caused confusion among the quality assurance
specialists we interviewed. For example, one specialist did not know the
difference between the certificate of conformance and alternate release
procedures. In two offices, specialists misinterpreted the requirements of the
certificate of conformance. Both specialists believed that if they used a certificate
of conformance for a contract instead of conducting a source inspection they
would forfeit the right to enter the contractor’s facility. However, the FAR states
that if a certificate of conformance is used, the rights of the Government to
inspect supplies of the contract shall not be prejudiced.

DCMA can use alternative release or certificate of conformance procedures to
reduce source inspections on noncritical and commercial items with a good
quality history. If the procedures are to be used on critical items, DCMA should
communicate with engineering personnel before proceeding with the action.
DCMA also needs to instruct its quality assurance specialists on the quality
assurance rights of the Government if procedures are implemented. DoD should
determine if it needs both the certificate of conformance and alternate release
procedure.

Inspection Information. Procurement activities did not provide detailed
information to the DCMA quality assurance specialist for the type and depth of
inspection required. Because a quality assurance letter of instruction was
included in only 5 of the 518 contracts, DCMA quality assurance specialists
conducted the inspections at his or her discretion. For example, one specialist
was forced to use his best judgment to determine which part of a propeller control
arm was critical for that aircraft part. The specialist stated that the item was listed
as a critical application item in the DLA-awarded contract but that neither the
contract nor the drawings specified exactly what made the propeller control arm
critical or exactly what the quality assurance specialist was required to do
regarding quality assurance. The specialist, therefore, guessed about what was

                                      15
intended when he conducted the inspection and accepted the item on behalf of the
Government. Several of the quality assurance specialists we interviewed told us
that they believed that the contracting officers were using old contracts and just
updating portions of the contracts for cost and purchase information. However,
they believed the quality requirements were not updated even when changes had
been made to the items being purchased.

Item Criticality. Each Service, DLA, and DCMA defines item criticality
differently, and those differences of opinion regarding criticality between
contracting activities and between DCMA led to confusion. The FAR broadly
defines criticality while DLA Directive 3200.1 provides a more detailed
definition of a critical application item. The 12 procurement offices we visited
provided
18 separate criticality designators such as critical application, flight critical, safety
critical, mission critical, critical, life threatening, and criticality “A.” The DCMA
received, from DoD procurement activities, conflicting information that affected
the degree and expectation of Government source inspections. If the procurement
activity requested a source inspection based upon the item’s criticality, DCMA
must have the necessary critical characteristics for conducting the source
inspection. We identified 27 contracts where a disagreement existed regarding
item criticality between the procurement activity and DCMA. For example:

        •   Three contracts at DCMA Pratt-Whitney were listed as critical or
            critical application items by the procurement activity as reasons for
            requesting a source inspection for the procurement of machine screws,
            internal relay bolts, and shroud assemblies. After reviewing
            applicable drawings and data at DCMA Pratt-Whitney, the technical
            assessment group determined that none of the items possessed critical
            characteristics. The responsible quality assurance personnel did not
            conduct a final inspection on the items.

        •   A contract action that procured an electrical access cover requested an
            inspection at source based on the criticality of the item. The quality
            assurance specialist contended that the access cover was not a critical
            application item nor did it have any critical characteristics. The
            quality assurance specialist conducted a kind, count, and condition
            type inspection.

Procurement activities had differing opinions regarding item criticality for the
same part. The Army awarded a contract for noise insulation blankets. The item
was not identified as critical on the Army contract, yet DLA awarded an FY 2002
contract for similar blankets and identified the blankets as critical application
items. The only difference between the blankets was their placement inside the
helicopter cabin. The quality assurance specialist responsible for the Army
contract stated that his opinion was that the blankets were not critical application
items. Although drawings existed, the source inspection consisted only of placing
the finished blanket over a mold to confirm its dimensions.

The DoD has taken steps to rectify the confusion regarding item criticality and
source inspections regarding aviation parts. In August 2002, a joint commanders


                                       16
group addressed deficiencies and inconsistencies of terminology, requirements,
processes, and operating procedures for the management of aviation critical safety
items. The Joint Aeronautical Commanders’ Group is comprised of
representatives of the Military Departments, DLA, DCMA, the Coast Guard, the
National Aeronautics and Space Administration, and the Federal Aviation
Administration.

The joint commanders group developed standard policies, terms, and definitions
that would cover the life-cycle management of military aviation critical safety
items, from the time an item is determined to be critical through its disposal. The
group emphasized that for new replenishment items, drawings and technical data
must clearly identify that the item is an aviation critical safety item and that the
data must identify the critical and major characteristics, critical processes, and
inspection requirements for the item. The group also emphasized the essential
role of engineering support activities to properly identify or confirm the criticality
and associated critical characteristics, manufacturing processes, and quality
assurance requirements of all aviation critical safety items, regardless of their
status in the DoD inventory. We commend the actions of the Joint Aeronautical
Commanders’ Group; therefore, no recommendations will be made addressing
DoD policy changes for aviation critical safety items.

The Senate Armed Services Committee’s report, “National Defense Authorization
Act for Fiscal Year 2004,” recommends establishing the process to ensure
operational safety and effectiveness for all flight safety items. The committee
recommended that design activities (Engineering Support Activities) validate the
design and technical requirement of all flight safety items and subsequently
confirm that flight safety items are procured from sources approved by the design
activity and in accordance with technical requirements established by the design
activity. A similar review of non-aviation parts would help focus quality
assurance to truly required areas, especially in light of dwindling quality
assurance resources in DoD.

Requests for Changes in Source Inspection. Another area where
communication failed occurred between the procurement activities and DCMA
with requests for changing the location of the inspection. DCMA has the ability
to request that items be changed from a source inspection requirement to a
destination inspection when, in their judgment, the DCMA quality assurance
specialist believes that either little or no value was added to the quality assurance
process. To request a change, the quality assurance specialist prepares a DD
Form 1716 and sends that form for action to the procuring contracting officer,
through the administrative contracting officer.

DCMA gets virtually no answer, however, from the procuring activities. DCMA
quality assurance specialists expressed frustration about not getting a response for
changing the location from source to destination. One office has all but given up
preparing the forms because of a lack of response. DCMA personnel did not
submit a DD Form 1716 for any of the items we selected for review, but we
obtained DD Form 1716 records for FY 2001 for two DCMA offices. Of the
125 requests that DCMA Santa Ana issued in FY 2001, the procurement offices
responded to only 16. In addition, DCMA Chicago, Illinois, issued 27 requests in

                                     17
     FY 2001, and procurement offices did not respond to any of the requests. A
     specialist at the DCMA Santa Ana office submitted 12 DD Form 1716 reports
     addressing the same contractor and procurement office. The 12 reports contained
     the following justification for the change from source to destination inspection:
                “This contractor is a distributor only. Nothing is manufactured at this
                facility. This contractor buys items from suppliers and sends them to a
                packaging house before they are sent to the “ship to” address. These
                are commercial off-the-shelf items. Recommend this contract and
                future contracts of this type be modified to have inspection and
                acceptance at destination.”

     The procurement office failed to respond to any of the 12 attempts by the
     specialist to change the inspection from source to destination. Because the
     specialist did not receive a response, he was forced, by the terms of the contract,
     to conduct a source inspection for a pre-packaged, commercial-off-the-shelf item.
     The inspection consisted of a kind, count, and condition of the item, a task
     suitable for destination inspection. Requests for changes through the DD
     Form 1716 can be an effective tool for reducing unnecessary source inspections.
     The report provides a link between the procurement and engineering activities
     and the DCMA quality assurance specialist regarding the status of items the
     activities are purchasing. DoD needs to strengthen this mechanism.


DoD Initiatives to Reduce Source Inspections
     DoD Initiatives. The increase in contract administrative workload and reduction
     in the quality assurance workforce caused both the Principle Deputy Under
     Secretary of Defense for Acquisition, Technology, and Logistics and the Director,
     DCMA to take the initiative that would provide an alternative method for
     reducing the DCMA contract administrative workload. The Principle Deputy
     Under Secretary of Defense for Acquisition, Technology, and Logistics proposed
     changes in acquisition business rules that would reduce DCMA workload. In
     addition, the Director, DCMA proposed alternatives for eliminating or
     minimizing resources expended on low-dollar value and low-risk contracts as a
     way to allocate resources to administer higher value and higher risk contracts.

             Proposed Changes in Business Rules. In September 2002, the Principal
     Deputy Under Secretary of Defense for Acquisition, Technology, and Logistics
     stated that source inspections should not be performed on lower value contracts
     unless specific quality concerns have been identified. The Principle Deputy
     Under Secretary of Defense for Acquisition, Technology, and Logistics further
     stated that a common sense approach across DoD is to use human capital
     resources where value is added. The Deputy Under Secretary proposed the
     following changes in DCMA business practices that could better align the
     shrinking contract management resources with the workload:

            •   Revise Defense FAR Supplement Part 46 to limit Government source
                inspection on contracts under $250,000 for when the head of the


                                             18
           contracting activity approves; significant contract technical
           requirements exist; critical product features are identified; and the
           contract is awarded to a manufacturer or producer.

       •   Eliminate DCMA production surveillance on contracts rated criticality
           designator “C” (not major system or urgent needs) unless contracting
           or program offices identify specific concerns to DCMA and request
           specific production surveillance.

       •   Discontinue DCMA production quality assurance surveillance on
           contracts for original equipment manufacturers with continuing
           production capability unless contracting or program offices identifies
           specific concerns to DCMA and request specific production and
           quality assurance surveillance.

        Eliminating or Minimizing Resources on Administering Low-Value
and Low-Risk Contracts. In February and March 2002, DCMA established a
Policy and Metrics Streamlining Tiger Team that would explore the concept of
either eliminating or minimizing resources expended on administering low-value
and low-risk contracts. The team performed pilot tests at selected DCMA sites
between June and September 2002. The objective of the pilot test was to
determine if contract management activities committed to administering low-
value and low-risk contracts could be minimized and resources made available for
higher risk contracts.

The team presented the results of the pilot test of low-value and low-risk contracts
to the headquarters, DCMA in December 2002. The team concluded that the pilot
test of low-value and low-risk contracts successfully demonstrated the ability of
DCMA to modify internal processes and adjust resources with little risk for
DCMA customers. The team recommended reducing the number of
low-value and low-risk contracts delegated to DCMA for management, which
would provide opportunity for reallocation of resources to higher-risk contracts.
Additionally, the pilot test validated that DCMA provided a costly clean-up role
in support of its customers. Correction of the Mechanization of Contract
Administration Services database input errors, poorly written contracts, miscoded
criticality indicators, and chasing acceptance documents for destination
acceptance contracts were described as low-value added to the contract
administration process.

DCMA reported that the critical application item designation was inaccurate or
unsubstantiated in a vast majority of cases. Several test sites eliminated the
critical application designation if not accompanied by additional quality assurance
instructions or information. However, the quality assurance specialist still
interpreted critical application to receive attention over and above a noncritical
item. Unless guidance such as a quality assurance letter of instruction, a technical
data package, or a drawing specifying the item’s criticality was provided, the
quality assurance specialist would not know the critical characteristics of the item
or how to tailor the oversight. If no critical characteristics were identified and the



                                     19
   contractor had a good quality history, the quality assurance specialist
   administered the contract as though the critical application designation did not
   exist. DCMA concluded that the critical application item designation should only
   be used when:

          •   consistent definition of item criticality is established;

          •   clear and consistent expectation for a source inspection is expressed;

          •   appropriate [contract] clauses are implemented; and

          •   specific source inspection instructions are provided.

   The team stated that the best way to minimize resources on low-value and low-
   risk contracts was to eliminate them from DCMA contract management inventory
   altogether. The lack of a singular and consistently applied definition of item
   criticality has contributed to requests for source inspections that provided minimal
   value-added to the quality assurance process of the procured items.

   In a September 13, 2002, memorandum, “Changes in Acquisition Rules,” the
   Principal Deputy Under Secretary of Defense for Acquisition, Technology, and
   Logistics stated that “DCMA’s contract management workload is growing and at
   the same time budget pressures are forcing significant reduction in resources. If
   we let that trend continue, we would experience general deterioration in the
   quality and timeliness support that DCMA provides.”


Summary
   We compared the inspection requirements for procurement activities and
   expectations of source inspections with actual results of the source inspections.
   We also reviewed Federal, DoD, and local policy, if any, and compared those
   polices with decisions rendered for inspection at source. We summarized the
   following factors as the primary impediments to consistent and accurate decisions
   to request a Government source inspection:

          •   Product Unawareness. We observed that procurement personnel were,
              at times, unaware of the item they were procuring or of the item itself,
              its function, and its relationship with a major end item, if applicable.

          •   Item Criticality. We documented that items were categorized as
              critical with no basis or rationale as to their criticality.

          •   Extent of Inspection. We learned that, although a source inspection
              was requested, the procurement personnel were not aware of the type
              of inspection that was expected or could be conducted based upon
              information or key characteristics provided to the DCMA quality
              assurance specialist.



                                        20
           •   Linkage between DoD Users and Procurement Activities. We
               documented breakdowns among DoD Program Offices, end users, and
               technical and engineering support personnel in responding to and
               conveying the rationale for and expectations of a Government source
               inspection to the procurement activities.

           •   Future DoD Quality Assurance and Procurements. Current and future
               DoD procurements are changing from rigid military specifications to
               commercial products. Accordingly, the DoD quality assurance
               program could free up limited DCMA resources that can be applied to
               critical, complex items requesting and deserving a higher level of
               inspection.

    Communication improvements between the DoD procurement community and
    DCMA will minimize or eliminate unnecessary source inspections. DoD can then
    appraise the quality assurance program to determine the most efficient placement,
    use, and function of its quality assurance specialists.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

          a. Define exactly what is involved and expected from the conduct of
    both Government source inspections and destination inspections.

          b. Develop specific uniform criteria as to what constitutes a critical
    and noncritical item.
           c. Develop a policy that addresses the need for conducting source
    inspections for commercial items and items purchased from distributors.

           d. Prohibit source inspections for commercial-off-the-shelf items.

           e. Require that DoD procurement activities respond to DD Form
    1716, “Contract Data Action Recommendation/Deficiency Report,” in a
    timely manner.

          f. Determine the need for the use of both the Certificate of
    Conformance and Alternate Release Procedure methods.

    Management Comments. The Under Secretary of Defense for Acquisition,
    Technology, and Logistics did not comment on Recommendation 1. We request
    that the Under Secretary of Defense for Acquisition, Technology, and Logistics
    provide comments in response to the final report.


                                       21
2. We recommend that the Director, Defense Contract Management Agency:

       a. Perform a risk-based analysis and determine if specialists at major
Defense contractors at in-plant locations could be better used inspecting and
evaluating supplies and services of new contractors, small contractors, and
contractors with a history of poor quality.

Management Comments. The DCMA partially concurred with
Recommendation 2.a. and stated that it continuously monitors quality assurance
resources and assesses workload demands at both resident and non-resident
activities. The Agency also stated that proposed changes in business rules
limiting source inspection activity will further refine resource allocations,
including new contractors and contractors with a history of poor performance.

Audit Response. What we wanted to achieve with the recommendation was to
have the resources allocated to those entities most likely to experience quality
problems. During the audit, we found large numbers of personnel working at
resident activities that had a good quality history. The DCMA comments indicate
that it shares our concern and ongoing changes in DoD business rules will more
clearly focus quality resources. Accordingly, the Agency’s comments meet the
intent of the recommendation.

      b. Require that the DD Form 1716, “Contract Data Action
Recommendation/Deficiency Report,” is used for contracts that involve a
requested change from source to destination inspection.

       c. Establish metrics identifying procurement activities that
participate and that do not participate in responding to DD Form 1716,
“Contract Data Action Recommendation/Deficiency Report,” inquiries and
report those activities that do not participate to higher management for
follow-up action.

Management Comments. The DCMA partially concurred with
Recommendations 2.b. and 2.c. and stated that proposed regulatory changes in the
Defense FARs will emphasize recognition of changes to source inspections
during the contract pre-award phase. The Agency stated that DoD has noted
ongoing concerns with nonresponsiveness to reported contract deficiencies,
including unnecessary source inspections, and will incorporate an automated
contract deficiency reporting and resolution system to the DoD Wide Area
Workflow system. This new addition will allow DoD users to record, report,
approve, and resolve contract deficiencies. The reporting system will also
produce management reports that can be used to identify systemic contract
deficiencies. DCMA will establish metrics to gauge how deficiencies are
resolved.

Audit Response. Active identification of unnecessary source inspections during
the contract pre-award phase will curtail the necessity of addressing them during
contract execution as a contract deficiency. If DoD regulatory changes limiting
source inspections are adhered to, source inspections will be implemented to only



                                   22
the highest risk procurements. The DCMA proposed actions meet the intent of
Recommendations 2.b. and 2.c.

    d. Instruct quality assurance specialists on how and when to implement
Certificate of Conformance and Alternate Release procedures.

Management Comments. The DCMA concurred and supplemented its Supplier
Quality Assurance policy with an information memorandum dated March 10,
2003, addressing the use of Certificates of Conformance and Alternative Release
Procedures.




                                   23
Appendix A. Scope and Methodology
   We analyzed whether Government source inspections were being performed on
   purchases that did not require them. From the Mechanization of Contract
   Administration Services database, we initially obtained 71,161 contracts for
   FY 2001 that specified a source inspection requirement. We sorted the universe
   to identify which Military Departments and DLA procurement activities managed
   the highest number of contracts in FY 2001 with a source inspection requirement.

   We then selected the top three procurement activities at the three Military
   Departments and three DLA procurement activities for review. We randomly
   selected 30 contracts for review at the largest 12 DoD procurement activities. We
   also identified commercial contracts by researching applicable DD Form 350,
   “Individual Contracting Action Reports,” for the 12 procurement activities and
   randomly selected an additional 30 contracts. Of the 12 procurement activities,
   3 had fewer than 30 commercial item contracts; therefore, we selected all the
   commercial item contracts for those procurement activities. In total, we selected
   705 contracts for review at the 12 largest DoD procurement activities. We then
   sorted the 705 contracts reviewed at the 12 DoD procurement activities by the
   DCMA field locations responsible for contract administration.

   We identified 60 DCMA field locations and selected 10 locations to visit. We
   transmitted contract data to the remaining 50 DCMA locations. During our
   review at the DoD procurement activities and at the DCMA field locations, we
   learned that 187 of the 705 contracts erroneously cited inspection at source; did
   not have contract or inspection information available for review; were not
   FY 2001 contracts; or were cancelled. We eliminated the 187 contracts that
   resulted in 518 FY 2001 contracts requesting source inspection remaining in our
   sample.

   The 518 contracts were comprised of 139 Army contracts, 102 Navy contracts,
   136 Air Force contracts, and 141 DLA contracts. We reviewed the contracts and
   interviewed engineering and contracting personnel at 12 procurement activities
   that we visited. We also visited 10 DCMA locations that provided contract
   administration for 255 of the contracts we reviewed. At the 10 DCMA locations,
   we interviewed 156 quality assurance specialists to determine the type and extent
   of the source inspection conducted. We also electronically contacted an
   additional 37 DCMA locations to obtain source inspection information for
   263 contracts.

   We evaluated the rationale for requesting inspection at source at the 12 DoD
   procurement activities we visited. We discussed the rationale of the decision with
   contracting personnel as well as program office and engineering support
   personnel. We reviewed local policy, if any, and compared that policy with
   decisions rendered for inspection at source. We also determined if the
   procurement activities established and enacted any policy for eliminating
   unnecessary source inspections.



                                       24
    We interviewed quality assurance specialists and team leaders responsible for
    contract administration of the contracts for the 10 DCMA locations we visited.
    For both the DCMA field activities visited and the DCMA locations we
    contacted, we obtained the DCMA-assigned risk rating of the contractor; the
    depth and extent of the source inspection; any deficiencies noted with the source
    inspection; any history of deficiencies with the contractor for the items procured
    in the contract; and the time and the distance traveled, if any, to conduct the
    source inspection. We reviewed the records specialists maintained for the
    contracts they administered, which included drawings, contractor appraisals,
    noted deficiencies, and any sampling plans incorporated by the specialist to select
    and test items for inspection. We also documented any problems the specialists
    expressed that impeded or negated an effective and meaningful Government
    inspection at source.

    We performed this audit from July 2002 through April 2003 in accordance with
    generally accepted government auditing standards. Our review did not include
    reviewing contracts administered by the Military Services, only contracts
    administered by DCMA. In addition, our review did not include the testing of the
    adequacy or effectiveness of the process-proofing inspection procedures or
    associated product audit employed by DCMA.

    Use of Computer-Processed Data. To achieve the audit objectives, we initially
    used computer-processed data contained in the Mechanization of Contract
    Administration Services and the Individual Contracting Action Report databases.
    We determined that FY 2001 contract data maintained on the systems was
    partially inaccurate and not fully reliable. However, because of the availability
    and reliability of the corresponding FY 2001 contract files and DCMA personnel
    internal records for 518 of the contracts that we selected from the databases, we
    were able to draw accurate conclusions.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD high-risk area to “Improve processes and controls to reduce contract
    risk.”


Management Control Program Review
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and
    DoD Instruction 5010.40, “Management Control Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls addressing unnecessary Government source
    inspections at 12 DoD procurement activities and 10 DCMA field locations.
    Specifically, we reviewed the management control plans at each location


                                        25
pertaining to supplier quality assurance. We reviewed management’s self-
evaluation applicable to those controls.

Adequacy of Management Controls. We identified a material management
control weakness, as defined by DoD Instruction 5010.40, involving the use of
DD Form 1716. The DD Form 1716 was used to note quality assurance
procedural deficiencies and document the rationale for changes from source to
destination inspection. DCMA widely discontinued the use of the report. In
addition, procurement activities rarely responded to reports submitted by DCMA.
Recommendations 1.e., 2.b. and 2.c., if implemented, will provide additional
opportunity for the DoD procurement activities and DCMA to jointly identify and
agree upon unnecessary source inspections. A copy of the report will be provided
to the senior official responsible for management controls at DoD procurement
activities and at DCMA.

Adequacy of Management’s Self-Evaluation. The 12 DoD procurement
activities we visited did not identify the Government source inspection process as
an assessable unit; therefore, the activities did not report material management
control weaknesses addressing this quality assurance function. DCMA did
identify material management control weaknesses addressing source inspections
at 6 of the 10 DCMA locations we visited. The specific functions listed below are
portions of the Quality Assurance processes outlined in the DCMA One Book and
selected DCMA offices that we considered:

       •   Risk Planning - Contracts and related customer directions reviewed to
           gain a clear understanding of customer needs.

       •   Risk Assessment - Assigning the risk rating to each key process
           supported by the data such as process proofing.

       •   Risk Handling - For low risk processes, use data analysis as the
           primary method of handling and performing product audits to maintain
           confidence in the accuracy of contract data. It also includes evaluating
           contractor quality systems for compliance with contractual higher-
           level contract requirements, surveillance techniques, and critical
           application.

       •   Risk Monitoring - The degree of risk with the contractor based on
           cost, schedule, and the technical risk inherent in the selection process,
           which might affect the successful delivery of product or service.

       •   Risk Documentation - Requires that quality assurance specialists,
           performing surveillance, maintain proper documents, and be available
           for review.




                                     26
Prior Coverage

Inspector General of the Department of Defense (IG DoD)
      IG DoD Report No. D-2002-013, “The Defense Supply Center Richmond
      Qualified Products List Program,” November 2, 2001. The report states that the
      Defense Supply Center Richmond could not conduct facility audits, adequately
      maintain the Qualified Products List of Government designation status and
      qualified manufacturers, or monitor related product deficiencies. As a result, the
      Government could not obtain the benefits of the Qualified Products List Program,
      one of which is the elimination of source inspection requirements for items
      procured from suppliers currently in the program.

DLA
      Defense Supply Center Columbus, Internal Review Report No. 26-00,
      “Compliance Review of the Origin Inspection Determinations,” May 18, 2000,
      states that DoD acquisition reform initiatives resulted in efforts that would
      eliminate unnecessary requirements for Government inspection at source. The
      Internal Review office took a random sample of 315 items identified as requesting
      a Government source inspection. The internal review office interviewed
      48 quality assurance specialists to obtain the justification of Government source
      inspection for 315 items. As a result, 40 items were changed to destination
      inspection and an additional 29 items were identified as potential candidates for
      destination inspection once additional procurement history was established.
      Government source inspection did not comply with the supply center’s source
      inspection guidance.




                                          27
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
  Deputy Under Secretary of Defense for Logistics Materiel Readiness
  Director for Acquisition Initiatives

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander, Army Materiel Command

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Supply Systems Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Air Force Materiel Command

Defense Agencies
Headquarters, Defense Contract Management Agency
  Commander, Defense Contract Management Agency, East
  Commander, Defense Contract Management Agency, West
Headquarters, Defense Logistics Agency




                                         28
Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        29
Defense Contract Management
Agency Comments




                    31
32
33
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Robert K. West
Terry L. McKinney
Nicholas E. Como
Gopal K. Jain
John A. Seger
Stacie A. Rimmer
Gwynne M. Roberts
Julie A. Yerkes
Melinda A. Schreyer
Sharon Carvalho
